No. 19-122

 

 

IN THE

Supreme Court of the United States

DAVID THOMPSON; AARON DOWNING;
and JIM CRAWFORD,

Petitioners,
Vv.

HEATHER HEBDON in her Official Capacity
as the Executive Director of the
Alaska Public Offices Commission, e¢ al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF AMICI CURIAE OF THE
NATIONAL REPUBLICAN SENATORIAL
COMMITTEE AND NATIONAL REPUBLICAN
CONGRESSIONAL COMMITTEE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,538 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2019.

 

Wilson-Epes Printing Co., Inc.
